CERTIFICATE OF COMPLIANCE WITH WORD COUNT

CERTIFICATE OF COMPLAINCE
No. 19-291

ANNE BLOCK,
Petitioner,
v.
WSBA, et al.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains '7'7 c
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 14th day of Oc

19

Anne Block Pro Se Pe itioner

